July 31, 2000


MEMORANDUM FOR:                 RAYMOND L. BRAMUCCI
                                Assistant Secretary
                                 for Employment and Training

                                        /s/
FROM:                           JOHN J. GETEK
                                Assistant Inspector General
                                  for Audit

SUBJECT:                        Postaward Survey of the Johns Hopkins University, Institute for Policy
                                Studies’ Welfare-to-Work Competitive Grant
                                Final Letter Report No. 03-00-007-03-386

This final letter report provides the results of our postaward survey of the Johns Hopkins University,
Institute for Policy Studies’ (JHU-IPS) Welfare-to-Work (WtW) competitive grant. The purposes of
our survey were to evaluate JHU-IPS’s financial management and program systems, and to make an
assessment of its capability to administer the WtW competitive grant. Our work was performed using a
postaward survey guide designed by the Office of Inspector General to make an early assessment of
JHU-IPS’s program operations so that timely corrective action could be implemented to improve
program performance and internal controls.

Overall, we concluded that the JHU-IPS has the capability, including the necessary financial
management systems, to administer its WtW competitive grant. However, the survey did disclose that
changes must be made in two areas related to reporting financial data on the WtW Financial Status
Report (FSR) in order to comply with WtW regulations.

On May 25, 2000, we sent JHU-IPS’ Principal Investigator and Program Manager a letter providing
the results of our survey. Their written response to our letter is presented as an attachment. We agree
with JHU-IPS’ planned corrective actions and consider the findings to be resolved. To close the
findings, evidence is needed that the corrective actions were implemented.

If you have any questions, please contact Roger B. Langsdale, Regional Inspector General for Audit, in
Philadelphia at (215) 656-2300.
Background and Scope

On January 4, 1999, JHU-IPS was awarded a $4.9 million WtW competitive grant. During the period
March 13-24, 2000, we conducted an examination of JHU-IPS’s financial and program systems for
administering the WtW competitive grant. To accomplish our postaward survey, we examined specific
WtW provisions promulgated through Title 20, Code of Federal Regulations (CFR), Part 645. We
reviewed the grant agreement, project proposal, and operating procedures and policies. We also
interviewed a number of key staff who were involved in developing and operating JHU-IPS’s WtW
program. Finally, we reviewed the operations of JHU-IPS’s major subcontractor, Alignmark, and a
third-tier service provider, Indian River Community College. Our survey did not include any testing of
internal controls. We performed our work in accordance with Government Auditing Standards
issued by the Comptroller General of the United States.

Findings and Recommendations

Overall, we concluded that the JHU-IPS has the capability, including the necessary financial
management systems, to administer its WtW competitive grant. While quantitative performance
measures have not yet been developed, we believe the JHU-IPS WtW model called the Career
Transcript System (CTS) is innovative in concept with well-organized implementation and monitoring
plans. The CTS is unique in developing certified employee skills which can be incorporated in the
client’s future employment resume. The CTS also utilizes both employee and job skills assessments as
well as onsite monitoring of employer/employee requirements and needs. In our opinion, these
approaches should enhance the client’s probability of success in making the transition from welfare to
work.

However, our survey found that changes must be made in two areas related to reporting financial data
on the WtW FSR in order to comply with WtW regulations. The following provides details.

1.   WtW Costs Must be Reported on the Accrual Basis of Accounting

     The WtW regulations contained in 20 CFR Part 645.240(c) require that financial reports be
     submitted to the U.S. Department of Labor (DOL). The regulations further require that
     expenditures and program income be reported on the accrual basis of accounting by fiscal year of
     appropriation. The accrual basis of accounting recognizes revenues when earned and
     expenditures when incurred. The WtW regulations state that if the grantee’s accounting records
     are not normally kept on the accrual basis of accounting, then accrual information should be
     developed through an analysis of the documentation on hand.




                                                   2
     We found that JHU-IPS reported costs on the FSR using the cash basis of accounting rather than
     the required accrual basis of accounting. JHU-IPS budget officials told us that it was Johns
     Hopkins University’s fiscal policy to report expenditures on a cash basis.

     Recommendation

     We recommend that the Assistant Secretary for Employment and Training require JHU-IPS to
     comply with WtW’s accrual basis of accounting requirement by developing a system that will
     analyze WtW cost documentation and provide the necessary information so that accrual cost data
     will be available for WtW financial reporting purposes.

     JHU-IPS Response

     JHU-IPS officials stated that they will discuss the need to change from a cash reporting basis to
     the accrual basis of accounting with the University’s accounting department. Unless JHU has a
     customized agreement with the Federal Government, a modified system will be developed to
     ensure that financial reporting meets Federal requirements.

     OIG Conclusion

     This recommendation is resolved and can be closed when the Assistant Secretary for Employment
     and Training provides evidence that the modified reporting system was implemented or that JHU
     has a customized agreement with the Federal Government.

2.   Reported WtW Costs Must Comply with WtW’s Cost Allocation Requirements

     The WtW regulation in 20 CFR Part 645.211 requires that at least 70 percent of the awarded
     WtW funds be spent to benefit hard-to-employ individuals and no more than 30 percent of the
     awarded WtW funds be spent to assist individuals with long-term welfare dependence
     characteristics. The Summary and Explanation section of the WtW regulation cited above explains
     that this requirement does not apply to the proportion of WtW participants served, but rather, to
     the percentage of funds expended on the participants in each of the 70 and 30 percent category.
     To comply with this requirement, the DOL Employment and Training Administration’s Technical
     Assistance Guide states that grantees must develop a mechanism to capture costs by participant
     categories. The Technical Assistance Guide further explains that the most effective method is to
     use separate codes in the chart of accounts and classification in the general ledger.

     We found that JHU-IPS method for reporting local community college costs in the 70 and 30
     percent categories does not comply with the WtW regulations. JHU-IPS allocated costs reported
     on the FSR based on the number of participants in the 70 and 30 percent categories. JHU-IPS
     must allocate costs based on the percentage of time spent on participants in each category.

                                                    3
The monthly activity reports submitted by the local community colleges provide the information
needed to properly allocate costs to the 70 and 30 categories, but JHU-IPS did not use the
reports to prepare its FSR. The monthly activity reports showed the amount of money spent
serving clients in the 70 and 30 percent categories was based on the amount of time spent on each
category.

Recommendation

In order to comply with WtW financial reporting requirements, we recommend that the Assistant
Secretary for Employment and Training require JHU-IPS to change its method for reporting local
community college costs to ensure that the costs are based on the amount of time spent on the
participants rather than on the number of participants served. JHU-IPS must also amend prior
FSRs so that they reflect costs properly allocated to the 70 and 30 percent categories.

JHU-IPS Response

JHU-IPS officials stated that they will use the monthly activity reports to show the amount of
money spent serving clients to report spending on the FSR. The past FSRs will be revised to
show this distribution, rather than using a method based on the number of clients in each category.

OIG Conclusion

This recommendation is resolved. To close the recommendation, evidence must be provided that
the monthly activity reports were used to report spending on the FSR and that the prior FSRs
were revised.




            AUDITEE COMMENTS




                                              4
